No. 19A-204_

 

In The
Supreme Court of the United States
—
GAIL ROSIER, +
Petitioner,

v.

JEFFREY STROBEL,
Respondent,
— A _
On Petition for a Writ of Certiorari
to the Supreme Court of Arizona

PROOF OF SERVICE
I declare that: I am a resident of Cayucos, California. I am over the age of
18 years and not a party to the within entitled cause. My name and address is
Dorothy Kleinhammer 1000 Park Avenue, Cayucos, CA 93430..

 

On October 25, 2019, I served pursuant to Supreme Court Rule 29.5, three
copies on all parties required the following document(s):

1. PETITION FOR WRIT OF CERTIORARI

(x) BY PRIORITY MAIL: Depositing a true and correct copy thereof enclosed in a
sealed envelope with the United States Postal Service with postage prepaid at
Atascadero, California. The envelope was addressed and mailed as follows:

Carol A. Salvati

Assistant Attorney General
1275 W. Washington
Phoenix, Arizona 85007-2997

The following Counsel for the interested none party Arizona email address(es) has
also been ELECTRONICALLY served: Carol.Salvati@azag.gov

I declare under the penalty of perjury that the foregoing is true and correct.
Executed on October 25, 2019, at Atascadero, California.

DATED: 10-25-2019 \ Si
Dorothy Kleinhammer - £2, _Ay i _——_
Name of person completing this form (signature of person édmpleting this form)
